1 ,0,





              COOPERATIVE ADMINISTRATIVE

                SUPPORT UNIT PROGRAM


                             TECHNICAL REPORT II


              USER AND GOVERNING OFFICIAL PERCEPTIONS OF

                         LOCAL MANAGEMENT





                f,lIVICE$O




         '0



              lii'd:m


         OFFICE OF INSPECTOR GENERAL
         OFFICE OF ANALYSIS AND INSPECTIONS
                                                     JUNE 1989
        COOPERATIVE ADMINISTRATIVE

          SUPPORT UNIT PROGRAM


                  TECHNICAL REPORT II



    USER AND GOVERNING OFFICIAL PERCEPTIONS OF

               LOCAL MANAGEMENT





                     RICHARD P. KUSSEROW
                      INSPECTOR GENERAL




OAI. Q69. 00862                            JUNE 1989

                                      EXECUTIVE SUMMARY


PURPOSE
The purose of this study was to conduct a qualitative user evaluation of the Cooperative Ad­
ministrative Suppon Unit (CASU) Program.

Overal inspection ais       were    to: 1)                 conduct a user assessment of CASU services in opera­
tional CASUs; 2) provide the national CASU board with an overview of the 
                       CASU Program
frm a user or customer perspective; and 3) identify the generic strengths and weakesses that
afect the program s workabilty and success. This report was prepared at the request of the
national CASU board and staff.

BACKGROUND

The CASU Progr is a Government-wide program , sponsored by the President s Council on
Management Improvement (PCMI), which operates under authority of Section 601 of the
Economy Act of 1932. At the national level, the PCMI established a CASU Program National
Board of Directors which sets policy, provides guidance, approved lead agencies and chaners
CASUs. In addition , a national interagency staff was organized to serve as a focal point for
day-to- day operations of the national CASU Program. The local CASU suppon strcture in-
eludes policy direction from a tenant board of directors, and managerial direction from a lead
agency. The day-to-day operations of the local CASU are supervised by a local CASU dic­
tor.

The CASU Progr was established under the concept that local Federa agencies could C90P­
eratively combine their resources to share common administrtive services at reduced costs
and with better service quality. Under the CASU concept, building tenants jointly shar in es­
tablishing and managing an administrative suppon unit that provides, on a reimbursable basis,
adnistrative services commonly needed by its members.
FINDINGS

CASU SERVICE PATTERNS VARY CONSIDERABLY

       The CASUs offer a broad varety of           services.


       The numbers of offered services and panicipating users var              widely among CASUs.

       There is grat varation in the growth and extent of service utilization among CASUs.

       The CASUs provide their services in several modes, with most delivered directly by the
       CASU staf, but a significant number are provided by private contrctors.
      Most CASUs say they attempt to assess the best method of delivery for services they
      offer.

BOTH USERS AND GOVERNING OFFICIALS SEE LOCAL CASU MANAGEMENT AS
EFFECTIVE

      Curnt users and local offcials rate high the general management and direction

     provided by CASU diectors, lead agencies and tenant boards.


     Improved understandig of CASU governing entity roles and responsibilties is needed.


     In genera, CASUs ar effectively marketing their services to potential users and 

     addig, or planning to add, new services.


     The CASU and customer communications are generally effective, with 83 percent of

     users ratig them goo to excellent.


     The CASU biling procedures ar fair, equitable and generally understoo by users.


         Most users say billng procedures are fair and that they generally understand both the
         services biled and the biling   procedurs.

         A majority of users (75 percent) say they have experienced no biling      problems.


         While a majority of users (70 percent) say their CASU prices its services on a unit
         cost basis, a substantial minority (30 percent) either indicate this is not the case or do
         not know.

     The CASU evaluations and audits deserve incredsed emphasis.

         There is some confusion among users and local offcials about the policy reuir­

         ments for these management tools.


         Relatively few CASU evaluations and audits have been conducted or planned.




RECOMMENDATIONS


Comparative Assessments of Service Delivery Sources

The National CASU Board and staff should promote compartive assessments of the most
practical and cost-effective means of delivering CASU services, both among existing CASUs
and in new CASUs to be formed.
Standard Role Descriptins for    CASU Governing Officials

To enhance cooperation and shared expectations, all CASUs should be encourged to adopt
stadard description of the roles and responsibilities of key CASU governing offcials, such as
that developed as par of the Seattle evaluation.

Unit Cost Pricing

The CASU staf should encourge the broadest, appropriate application of unit cost pricing of
services in al new and existing CASUs. This should enhance user understaiding and aid in
analysis of service cost trnds and cost comparsons of alternative service sources.

Annual User Evaluations and Periodic Fiscal Audits

The national CASU staf   and board should:


1. Formalize CASU policy to require 1) annual user evaluations of CASU service delivery
    and user satisfaction , and 2) periodc fiscal audits by the lead agency inspector general or
    audit agency.

2. Develop, cooperatively with operational CASUs, suggested practical protocols for con­
    ducting CASU evaluations and audits. Regarding the evaluation protocol, we suggest use
    of simple evaluation tools, such as the form in the appendix to this report


COMMENTS ON THE DRAFT REPORT


We shard the draft of our Executive Repon on the CASU Program, and the three supponing
technical repons, with the CASU National Board of Directors and the CASU national staff.
They adessed their comments to the recommendations in the Executive Repon since these
are compiled from the thee supportg technical repons in the OIG study. They generaly
agree with the findigs of the repons. The full text of the CASU offcials ' comments is in-
eluded in the appendix of the Executive Report.




                                               iii
. .. ...................... .. .. .....
                             . . . . . . . . . . . . . . . . . . . . . . . . . . .....
                                                                                   . . . ...
                                                                                         . . . ...          ......... ... . .... ...
                                                                                               . . . . . . . . . . . . . . . . . . . . . . . . ......
                                                                                                                                                . .. .. .. .. ..
                                                                                                                                                              ... ... .........
                                                                                                                                                                            ...'..




                                                                    TABLE OF CONTENTS


        EXECUTIVE SUMMARY

        PURPOSE


        BACKGROUND


        METHODOLOGY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


 ............
        FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


        CASU SERVICE PATTERNS VARY CONSIDERABLY


                     CASUs offer a wide variety of services. . .                                                                                                            . . . 3


                     The number of offered services and users vary widely among CASUs                                                                                           . 3


                     There is wide variation in the growth and extent of service utilization. . . . . . . . . . . . . . . . . 3


        BOTH USERS AND GOVERNING OFFICIALS SEE LOCAL CASU

        MANAGEMENT AS EFFECTIVE                                                                                                                . . . . . . . . . . . . . . . . 5


                     CASU general management and direction are rated high.                                                 ...


                     Improved understanding of CASU roles and responsibilties is needed


                     CASUs are effectively marketing their services. . . . . . 


                     CASU and customer communications are effective. . .
                     CASU billng procdures are fair, equitable and generally understoo by users. . . 


                     CASU evaluations and audits deserve increased emphasis


        RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


        COMMENTS ON THE DRAFT REPORT...                                               

        APPENDIX Service Evaluation Too . . . .                                                                                                             . . . . . . . . . . 14

                                    INTRODUCTION



PURPOSE


The purose of this study was to conduct a qualitative user evaluation of the Cooperative Ad­
ministrative Suppon Unit (CASU) Program.

Overal inspection aims were to: 1) conduct a user assessment of CASU serVices in opera­
tional CASUs; 2) provide the national CASU board with an overview of,the CASU Program
from a user or customer perspective; and 3) identify the generic strengths and weakesses that
afect the program s workability and success. This repon was prepared at the request of the na­
tional CASU board and staff.



BACKGROUND


The CASU Progr is a Government-wide progr, sponsored by the President s Council on
Management Improvement (PCMI), which operates under authority of Section 601 of the
Economy Act of 1932. Under the CASU concept, agencies in multi-tenant, federally occupied
buildigs jointly shar in establishing and managing an admnistrative suppon unit that pro­
vides, on a reimbursable basis, admnistrtive services commonly needed by its members.

In October 1985, as pan of a shard services initiative, the heads of the Genera Services Ad­
ministration, the Offce of Management and Budget, and the Offce of Personnel Manage­
ment, issued a joint memorandum to the heads of all Federa agencies introducing and
encouragig suppon for the CASU Program.

To ensur   strong policy suppon at the national level , the PCMI established a CASU Progrm
National Board of Directors. The national board sets policy and provides program guidance,
approves lead agencies and chaners CASUs. A national interagency staff has also been organ­
ized to serve as a focal point for day-to- day operation of the national CASU Progr. The
staf advises the CASU board on policy , and progrm issues and provides technical assistance
in organizing and operating CASUs.

The national board has established a prototye strcture for local CASUs which includes pol­
icy control and direction from a tenant board comprised of CASU service users or potential
users. A lead agency, selected by the tenant board of directors, provides admnistrtive man-
agement suppon to the CASU in such areas as fmancial management, stang, personnel ser­
vices, etc. The day-to- day diection and management of the CASU staff is provided by a
CASU diector.
Thugh maketig and intervention by the national CASU staf, the CASU Progr recrits
Federa agencies located in a single buildig or cluster of buildings to become members of a
local CASU and to panicipate in its development, organization , and management. Recruited
CASU sites underte a feasibilty study to determine if a CASU could successfully operate at
their site, what admnistrtive services their CASU should provide, and how a CASU could
most effectively supply these services.

Once the decision to establish a CASU has been made, its prospective members establish its
operating plans though a series of interagency memoradums of understandig. The national
CASU board reviews these plans and, if appropriate, grants a CASU chanerto the local site.

Current CASUs provide such services as mail, moving and labor, physical fitness, shipping
and receiving, photcopying, personal propeny management, conference and training room
scheduling, child care, imprest fund and employee assistance programs. These services may
be provided directly by the CASU staff, through shared services arangements from the lead
agency or other CASU parcipating agency or secured through private contracts. By consoli­
dating services, the CASUs expect to provide less expensive, more accessible, and better qual­
ity services. The CASUs also expect to standardize and share administrative systems,
accelerate use of automation, and to improve management information systems.

Curntly, operational CASUs exist at the following locations: Anchorage , Alaska; Atlanta,
Georgia; Chicago, llinois; Cincinnati, Ohio; Cleveland, Ohio; Denver, Colorado; Fort Wonh
Texas; Jackson , Mississippi; Indianapolis, Indiana; Kansas City (12th Stret), Missouri; Los
Angeles, California; New York City (Javits Building), New York; and, Seattle, Washington.
Additionally, five CASUs have been chanered at these locations: Boston , Massachusetts;
Fresno, Calfornia; Kansas City (South), Missouri; New York City (Varck Stret), New York;
and, Pittsburgh, Pennsylvania.



METHODOLOGY


This inspetion is based on a mail survey, onsite strctured interviews and selected back­
ground and informational materials p ovided by the national CASU staff. Our findings are
based on a tota of 155 respondents, including 34 CASU management and governing offcials,
80 current and former CASU users and 41 potential users at 13 of the 14 currently chanered
CASUs which were operational or projected to be operational by the end of the second quarr
of Fiscal Year (FY) 1989.
                g. 





                                                             FINDINGS


This is one of the technical repons prepard in conjunction with our Executive Repon on
the CASU Progrm. The Executive Report, " An Assessment by Users and Loal Offcials,
summarzes the chief findings of our study. The technical repons provide details on our study
fmdings as they relate to three separte aspects of the CASU Program. This technical repon is
 User and Governing Offcial Perceptions of Local Management. " The other two ar "User
Assessment of Services " and "Local Offcial Perceptions of Policies and Implementation.

    CASU SERVICE PATTERNS VARY CONSIDERABLY.

    A.   CASUs OFFER A WIDE VARET OF SERVICES.

         1. Of the 28 different services provided, 61 percent are offered by only 1 CASU.

         2. Only 4 services are offered by 5 or more CASUs.

         3. The top 10 services offered by the 10 operational CASUs are:

                a. Mail (8)
                b. Moving/abor (7)
                c. Physical Fitness (7)
                d. Shipping/eceiving (5)
                e. Photocopy (4)
                f. Excess           Personal Propeny (4)
                         Conferenceffraining Room Scheduling (4)
                h. Child           Car (3)
                i. Imprest Fund (2)
                j. Employee Assistance                     Progrs (2)
    B.   THE NUMBER OF SERVICES EACH CASU OFFERS VARIES WIDELY, RAGING
         FROM            TO   13    SERVICES, WITH AN AVERAGE OF                              OFFERED SERVICES.

    C.   THE NUMBER OF USERS AT EACH CASU VARIES SIGNIFICANTLY, RANGING
         FROM A LOW OF                      TO A HIGH OF           35,   WITH AN AVERAGE OF           17   USERS.

    D.   THERE IS SIGNIFICAN VARATION IN THE GROWTH OF SERVICE                                               UTIli-
         TION AMONG CASU USERS.

         1. Five of the 10 operational CASUs repon that some of their users have added to
                the number of services they use since joining the CASU.
     2. Among these 5 CASUs the percentage of users who have added services ranges
           from 25 to 100 percent.

E.   THE EXTENT OF UTIliZATION OF CASU SERVICES ALSO VARIES CONSIDER­
     ABLY.

     1. In        none of the CASUs do all users panicipate in all services.

     2. A majority of users panicipate in al offered services in only two CASUs.

     3. In three CASUs 40 percent or more of the users panicipate.in all offered services.
     4. However, in six CASUs a strong majority of users (77 to 100%) utiize at least
           one- half      of the offered services.
     5. The percentage of CASU parcipants who use only one service is relatively
           small, raging       from 0 to 14 percent.


     6. Users at two sites say the CASU attempts to require all users to parcipate in all
           offered services.

F.   CASUs PROVIDE THEIR SERVICES IN SEVERA MODES, WITH MOST DELI­
     ERED DIRECTLY BY THE CASU STAFF, BUT A SIGNIFICAN NUMBER ARE
     PROVIDED BY PRIVATE CONTRACTORS.

                                 CASU SERVICE DELIVERY METHOD

                        CAU STAFF-4 - 63,




                                                       PRATE COCTi8   - 26.

G.   MOST CASUs           (9   OF 10) SAY THEY ATTEMPT TO ASSESS THE BEST METHOD
     OF SERVICE DELIERY, I.E., DIRECT, CONTRACT OR SHARED SERVICE, FOR
     THE SERVICES THEY OFFER.
'" ..r   .'. ..   -   ,-- --' .... -.   ' - . .., . ,... ...+_...   .,- ,,            -.. ..,
                                                                             ,,"". '-u..._
                                                                                     -,-,
                                                                                     ..-             . .- ,. - -""-----' -, , _. ,.. --....                                               '.-. '...
                                                                                                                                                              .. .---- .. - .-_'.........-....-......
                                                                                                                                                 -.."..,.... __".
                                                                                                                                              .._.......      ......_'....      ........              "'--
                                                                                                                                                                                    ''''-'--.'-''''...........
                                                                                                                                                                                                       ,,- """.    ...._-;'.. -'......' '_
                                                                                                                                                                                                               ., -......                    ....., ...---..u..-.....".-.­
                                                                                                                                                                                                                                                           ,,              -......   .._.-,... ,...   =..",   ....-'-.   .--




                      II. BOTH USERS AND GOVERNING OFFICIALS SEE LOCAL CASU MANAGE.
                                MENT AS EFFECTIVE.

                                A.           CASU GENERA MANAGEMENT AND DIRECTION ARE RATED HIGH.

                                             1. Curnt users give high marks to the general management and diction provided
                                                by CASU dictors, lead agencies and tenant boards.

                                                                         USER EVALUATIONS OF GENERAL MANAGEMENT AND

                                                                                  DIRECTION PROVIDED BY THE

                                                                       CASU DIRECTOR , LEAD AGENCY, AND THE TENANT BOARD



                                                                                                                                                                                                                                                                           . EXCELLNT

                                                                                                                                                                                                                                                                           m GOD
                                                             060                                                                                                                                                                                                     ,. B       FAIR

                                                             en                                                                                                                                                 UU..w.....
                                                                                                                                                                                                                      UU""_.....
                                                                                                                                                                                                                                                                          o POR

                                                                                                                                                                                                                                                                        .. 0 DON'T KNOW
                                                                                                                                                                                       "UU"'.
                                                             u. 40


                                                                                                                                                                              UU,,-,...
                                                                                                                                                                                     U'U"-'.. ""H'...
                                                             W 30
                                                                                                                                                                                                                                                           ",17 ""




                                                             a: 0

                                                                                           CA DIRECTOR                                               LE AGENCY                                                              TE BOAR
                                                                                                                                              RATED GROUPS
                                                              TOTAL REPO:                   CAU       DIRECTOR"", Ie, 4 , 2, 2

                                                                                                LE AGECY-30, 24, 8, 0, 10

                                                                                                lENNAT BOAR23, :!, 8 , 0 , 13



                                             2. The CASU management and governing offcials rate CASU dictors, lead agen­
                                                cies and tenant boards faily high on the general management and diection they
                                                           give the CASU.

                                                                        GOVERNING OFFICIAL' S EVALUATIONS OF GENERAL
                                                                         MANAGEMENT AND DIRECTION PROVIDED BY THE
                                                                     CASU DIRECTOR, LEAD AGENCY, AND THE TENANT BOARD
                                                             en 80                                                      """'HR"'H"""'-""''H..                    d.....
                                                                                                                                                                                                                                        . EXCELLENT
                                                                                                                                                                                                                                        II GOOD
                                                                                                                                                                                                                                        EJ FAIR
                                                                                                                                                     "'W...            h._......                                                   ." tJ POOR



                                                                        40

                                                                        20

                                                             ff 0
 CASU DIRECTOR LED AGENCY TENANT BOARD

                                                                                                                        RATED GROUPS

                                                             TOTAL           RE:                 CAU DlRECTOfHe, 5, 0 , 0
                                                                                                 LE AGNC-18,                 2.1
                                                                                                 TENA BOAR12. 13, 4, 0
     3. Overal, it is noteworty that:
               Both respondent groups reserve their highest ratings for CASU dictor per­

               formance.

               None of the management or governing entities is given a combined excellent

               and good rating of less than 72 percent.


B.   IMPROVED UNDERSTANDING OF CASU GOVERNING ENTIT ROLES AND RE­
     SPONSIBILIIES IS NEEDED.

     Asked if CASU tenant board and lead agency roles and respons          bilties are clearly
     defmed and corrctly understoo, local off ials say:


                                                      Yes

        Clearly Defined?                              87%             13%
        Clearly Understoo?                            74%            26%

C.   IN GENERA , THE CASUs ARE EFFECTIVELY MARKETING THEIR SERVICES.

     Current User Perceptions



     1. The CASUs do a goo    to excellent job of marketig, according to 82 percent of
         the curent users. Few curnt users rate marketing effons as fai (8 percent) or
         poor (6 percent).


     2. Users also repon CASUs are      faily effective in enlisting the   maketig suppon
         of:

                                               Yes

               Tenant Boards                   75%                               19%
               Federa Executive
               Boards                          61%                              32%

     Potential User Perceptions

     3. A majority of potential users (83 percent) say they have received an explanation
         of the local CASU concept, and 77 percent say this explanation was effective to
         very effective.

         a. Most potential users (92 percent) know what a CASU is.
         b. A large majority (88 percent) of   potential users are famliar   with some of   the
               services offered by the CASU.
"-..... ..." .."'.,-" ,.. .._ '- ,,. ...:-.....---   " "' - " ",,,   ,,,,- ,,,,-,-,,,.,,,,, ,,,,,,   "'.'   '''   ''W   - - '',. .., , - ".. .'     - ... ".,""''''' -   .._,,, -   -         '''-   '-'-' "'' -''_.   -_.:'_'--   ''-''''''   -'''   "".' ''-''." "'''   ''''-'_   ''V   _._-r-'",'-'","




                                                                     c. Most       potential users repon they have been invited to CASU meetings (77 per­
                                                                             cent) or received CASU newsletter, progrss repons or other wrtten informa­
                                                                             tion (83 percent).
                                                                     d. Overal,     potential users tend to have a more positive than negative image of

                                                                             the CASU:


                                                                                     Fifty- four percent say they hear positive feedback and supportive com­

                                                                                     ments about the CASU.

                                                                                     Only two say curnt users are experiencing problems. 

                                                                                     A majority (52 percent) say the CASU is most likely to either expand and

                                                                                     grow in the future (43 percent) or remain the same (9 percent).

                                                                     e. A majority (74 percent) of       potential users say their agencies parcipated in

                                                                             the CASU feasibilty study, with a majority saying it was thorough (73 per­

                                                                             cent), timely (60 percent) and objective (68 percent).


                                                          4. Potential users say they would be more likely to paricipate in CASU services if
                                                                     they had:



                                                                     a. Good cost savings data (62 percent).
                                                                     b. Reliable information on the quality and responsiveness of CASU services

                                                                         (44 percent).

                                                                     c. A dictive to parcipate from         their parent agency (24 percent) or if they

                                                                             could persuade their national headquaners that CASU is a goo concept

                                                                               (8 percent).
                                                                     d. Assurace they could return to the way they were if the CASU proved too

                                                                        costly, inefficient or ineffective.


                                                                     Nore:              About one- half of the potential users say they either don t know (34
                                                                                        percent) if their national parent agency suppons the CASUs or feel
                                                                                        their agency is very to somewhat    unsupporrive (14 percent).

                                                           5. Regarding the likelihoo of their agency panicipating in the CASU in the futue,
                                                                      most potential users say:

                                                                      a. They wil probably or                                           definitely use           CASU services (57 percent).

                                                                                                                                                                          some

                                                                             (30 percent ar                       unsure; 13                      percent probably wil not.)

                                                                      b. They wil probably or                                           definitely nor use                              all      CASU services (78 percent).

                                                           6. The main incentives to parcipate in the CASU                                                                                           progr mentioned by potential
                                                              users   to:           ar
                                                                      a. Achieve potential cost savings. (24)
                                                                      b. Receive better quality                                          services. (8)
   ... -_..- ... --_w-. -_. - .-... ---   w ..- -"..-- ' ""_n _r__­




    c. Receive the                          same quality of service at lower cost. (6)
    d. Obtain services not previously available. (5)

7. The main disincentives to parcipating in the CASU listed by potential users are:

    a. Fear losing control over services. (12)


    b. Fear losing staff to the CASU. (6)
    c. Risk that parcipation may increase rather than decrease co                                      ts. (5)

    d. The requirement that users parcipate in all CASU services. (4)
    e. The user agency                                is too smal to have need for all CASU services. (4)

Local Official Perceptions

8. Most local officials say CASUs are actively marketing their services.

    a. The CASUs ar                                 marketing         their services using a wide varety of methods:

              Meeting with potential users to explain the CASU and its services.

              Makng special presentations (both group and solo).

              Sharng status repons and CASU newsletters with potential users.


    b. Local offcials agree with users      that CASUs are faily effective in enlisting
            the suppon of their tenant boards and local Federal Executive Boards in mar­
            keting effons.

9. The CASUs are adding, or planning to add, new services. This is an indication
    of their perceived effectiveness and user support.

    a. Five of the 10 operating      CASUs indicate increasing the number of avaiable
            services from those offered at the program s inception.
    b. Seven of the 10 operating CASUs plan to increase the number of offered ser­
            vices.
    c. The top 5 additional services CASUs plan to add are:

                     Service                                                Number of CASUs

                      Photocopying

                      Records Storage

                      Excess Ptopeny/Warhousing

                      Labor & Moving

                      Typing/Clerical

D.   CASU AND CUSTOMER COMMUNICATIONS ARE EFFECTWE.

     1. The CASU communications are rated as good to excellent by 83 percent of the
         users.
                              EFFECTIVE COMMUNICATIONS

                                                  EXceUENT (29)- 40.




                                                                       , VERY POR (1)- 1,
                                                                         POR (1)- 1.




     2. Most users say the CASU keeps them informed though                regular repons, periodic
         meetigs or other means:

                                              Yes

                        Repons               68%               30%
                        Meetings             86%                11%

     3. Local CASU offcials agre that customer communications ar effective.
         a. Offcials rate communications as excellent (53 percent) to goo               (40 percent).

         b. They say users are kept informed on CASU operations mostly through peri­
            odc meetings, regular status report, and newsletters.
         c. User service issues or complaints are handled promptly and resolved effec­
            tively, accordig to the vast majority of CASU officials.

E.   CASU BILUG PROCEDURES ARE FAIR , EQUITABLE AND GENERALY UN­
     DERSTOOD BY USERS.

     1. Most      users say CASU biling procedures ar fair and equitable and that they gen­
         eraly understand both the   services biled and the biling procedures.
                      '"    "'' ,	 ...................
                  " ""':":""'          :::::::
                                            ::: ::::!::::'                                ,"   "",
                                                                                                '"'''''''''''
                                                                                                            " " ::.:    ::'




    FUU.Y(42)_ 63'   7%                                                   FAlR(52)- 81.



                                                     !::( 00 NOT (8)- 1   1% "                                            " OO KNOW (2)- 3.
                                                                                                                        NOT FAIR (10)- 15,
                                     SOEWT (16)- 24,

 UNDERSTAND BILLING PROCEDURES?                                               ARE BILLING FAIR AND EQUITABLE


    a. Most users           (83 percent) say they fully understand which                                 specifc services are
       being biled by the CASU.
    b. Most users (88 percent) say they understand the CASU biling computation
       procedures.
    c. Most users           (75 percent) say they have experienced                             no biling problems                  with
       the CASU (67 percent) or are unaware of any biling problems (8 percent).
       A few users (25 percent) repon having experienced such billing problems as
 , d. ,	
       delays, incolTect bils (miscalculation , wrong agency) lack of itemization or
       supportg documentation , and risk of funds lapsing in the four quaner
       when credits for unused advance quanerly billngs ar not made timely.
       In most cases respondents indicated problems had been satisfactorily resolved
       by working with CASU staff.
    e. Most users (74 percent) say the CASU bils their agency for actual services re­
       cei ved.
    f. While a majority   of users (70 percent) say their CASU prices its services on a
       unit cost basis, a substantial minority (30 percent) either indicate this is not
       the case or do not know.

2. Responses of local offcials generally milTor those of users regarding CASU bil­
    ing procedurs.

    a. The CASU offcials say users fully understand both the services they
       biled for (100 percent) and the biling computation methods (96 percent).

    b. Dirctors at 9 of the 10 operational CASUs view their biling                                                     methods as fai
       and equitable.
    c. At 9 of the 10 operational CASUs, dictors say billngs normally are based
       on actual services received and usually are priced on a unit cost basis, when­
       ever appropqate.
CASU EVALUATIONS AND AUDITS DESERVE INCREASED EMPHASIS.

1. Both    users and local CASU offcials appear to be somewhat confused or unin­
    formed about whether their CASU' s chaner requires 1) an independent annual
    evaluation of CASU service delivery and user satisfaction, or 2) an annual fiscal
    audit.

    a. Only 40 percent of    users sayan evaluation is required (5 percent say one is
       not   required, and 55 percent do not know).
    b. While 63 percent of local CASU offcials sayan evaluation is reuired,       15
       percent say one is   not   required, and 22 percent do not know.
    c. Fully 63 percent of users do not know if an annual audit is required (25 per­
       cent think one is require, and 12 percent do not think an audit is requird).
    d. Only 39 percent of local CASU officials sayan annual audit is requird (32
       percent say one is not required, and 29 percent do not know).

2. Only 32 percent of users and 44 percent of the local CASU offCials report an
    evaluation has been conducted at their CASU. Of course, in the case of newly
    operational CASUs, an evaluation might be premature.

    Some local officials sayan evaluation has not been conducted because:

        The CASU is so new an evaluation would be premature. (4 CASUs)

        The CASU is waiting until all services ar operational before an evaluation

        is done. (1 CASU)


4. Only 4 users (6 percent) and the local officials at 1 CASU say their CASU' s fis­
    cal records have been audited.

5. Some local offcials sayan audit has not been conducted because:

        The CASU is so new an audit would be prematur. (5 CASUs)

        The lead agency looks at the CASU as its own operation and subject to its

        own internal controls. (2 CASUs)

        They haven t needed one, i.e. ,
                                      looking at the budget and other specific areas

        shows everything is fine. (1 CASU)

                                     RECOMMENDATIONS

Do Not Require Use of All Services

Since parcipant needs var widely, CASUs should not require users to utilize all offered ser­
vices as a condition of parcipation.

Comparative Assessments of Service Delivery Sources

The national CASU board and staff should promote comparative assessments of the most prac­
tical and cost-effective means of delivering CASU services, both among ' existing CASUs and
in new CASUs to be formed.

Standard Role Descriptions for CASU Governing Officials

To enhance cooperation and shared expectations, all CASUs should be encouraged to adopt a
stadard description of the roles and responsibilties of key CASU governing officials, such as
that developed as pan of the Seattle evaluation.

Unit Cost Pricing

The national CASU staf      should


1. Encourge the broadest, appropriate application of unit cost pricing of services in all new
      and existing CASUs. This s hould enhance user understanding and aid in analysis of ser­
      vice cost trnds and cost comparsons of alternative service sources.

2. Stress the imponance of clear, specific and timely user service bilings and assist new and
      existing CASUs in achieving this end.

Annual User Evaluations and Periodic Fiscal Audits

The national CASU staf      and board should:


1 .   Formalize CASU policy to require a) annual user evaluations of CASU service delivery
      and user satisfaction , and b) periodic fiscal audits by the lead agency inspector general or
      audit agency.

2. Develop, cooperatively with operational CASUs, suggested practical protocols for con­
      ducting CASU evaluations and audits. Regarding the evaluation protocol, we suggest use
      of simple evaluation tool , such as the form in the appendix.
COMMENTS ON THE DRAFT REPORT


We shared the draft of our Executive Report on the CASU Program, and the three supporting
technical repons, with the CASU National Board of Directors and the CASU national staff.
They addressed their comments to the recommendations in the Executive Report since these
are compiled from the three supporting technical reports in the GIG study. They generaly
agree with the findigs of the repons. The full text of the CASU officials ' comments is in­
cluded in the appendix of the Executive Repon.
               APPENDIX




COOPERATIVE ADMINISTRATIVE SUPPORT UNITS


        SERVICE EVALUATION TOOL
                                                                                                                                                       .




                                                                           RF:

     Plea   rate this                      for each of the follewir ircators by    cirlir the approriate rens opon. 'le rerrent
     shOOd CClete
              th ific seice        CA seice
                              form for each of the                it reives or preiOJly reved.
1. 1uib iUtv            am
                Coen erice
                                                                    Much fore    fore        Sam As        Les            Much   les   Dan I t KI1:

         To wht
            exen is th seice rore reive
     or tiy uner th                                                 Rensive      Rensive     Before        Reive          Rensive
                                                                                             Sam As                       Much Les     I)n I t
         To wht
            exen ha c:r conven iJro                                 Mu Mo        Sant                      les
         due to the                                                 Coenen       colWenent   Before        COlWenent      COlWenent
                                                                                             Fair          EOr            Ver EOr      I)n I t
         Hew            d yo rate a.1S contl aver seice             Exent
         deliver uner th         C1
2.         of ser
                             is the                                 Much                     Sam As        Wors           Much Wors     Don I t
         To wht         ex       th seice                                  Bett Bett
         bett urer th CAquity of                                                             Before
         To wht ext:         is the
                        quity of th seice                           Much fore    More        sa            les            Mlch
                                                                                                                            les         Do't Kn
         JOre coiste un the                                         Ckist        COnsist:    Before        COnsist:       Coist
         Hew have       seice deive Jlthod      or                  Grtly        Sart:       Sam As        Sart           M. Wors       Do I t
           telog iJra urer the                                      IDraed       IDraed      Before        Wors
3.   Ava ilabili  of ser
           Hew ha the CA affec aveIall           availability       Grtly        Sart        Sam As        Somt           Mu Wors       Do't Kn
         ofth seice?                                                IDraed       IDraed      Before        Wors
         Was th spific seice             available to               Yes                      Don't
         agen before the CA ex?
4. co of serice
         Is the     cc-effecvens of th seice                        Much Bette   Bett        Mxt Sam       Sant           Mu Wors        Don't
         bette or Wors        un the                                                                       Wors
         Hew have       yo age' s cots for                                                   Cots Sam      Cots           Cots Mu        Do't Kn
         seice be affec               by the                        Gretly       Sart        As Beore      Sant           High
5. Wht is yo            ovl satifacton with th          CA          Ver          Sat       Sat:            Ver                           Don   't Kn
         seice?                                                     satified     Satisfied Distisfied      Dissatistied
6. Plea        des briefly an prolem exien                   with ths seice am he   the prolem we     relve.
